OIG Investigative Reports, Louisiana 01/26/2010 - Moss Jefferson Sentenced to 10 Years in Federal Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States U.S. Attorney's Office
Eastern District of Louisiana
U.S. Attorney's
Office
Eastern District of
Louisiana
500 Poydras St
Suite 210-B
New Orleans,
Louisiana 70130
Tel: 504.680.3000
Fax: 504.589.4510
Mose Jefferson Sentenced to 10 Years in Federal Prison
January 28, 2010
MOSE JEFFERSON, age 67, a resident of New Orleans, was sentenced today to ten (10) years (120 months) in federal court by U. S. District Judge Mary Ann Vial Lemmon for two counts of bribery in connection with a program receiving federal funds and two counts of obstruction of justice, announced U. S. Attorney Jim Letten. In addition to the term of imprisonment, Judge Lemmon ordered that JEFFERSON pay a $175,000 fine, $913,000 in restitution, and be placed on three (3) years of supervised release following the term of imprisonment, during which time the defendant will be under federal supervision and risks an additional term of imprisonment should she violate any terms of her supervised release.
Court documents show on August 21, 2009, JEFFERSON was convicted by a federal jury after a two week trial. According to evidence introduced at trial, the jury found that MOSE JEFFERSON paid former Orleans Parish School Board member, Ellenese Brooks-Simms two $50,000 bribes totaling $100,000 as a reward for Brooks-Simms’ support and approval of two Orleans Parish School Board contracts involving the lease of a computer-based educational software system called I Can Learn. When the contracts were approved in June, 2003 and November, 2004, MOSE JEFFERSON was an exclusive sales agent for the vendor who paid JEFFERSON approximately $913,168.21 in sales commissions for his role in securing the 2003 and 2004 contracts with the School Board.
Brooks-Simms, her daughter Stacy Simms, and Moliere have been convicted of federal felonies via guilty pleas in U. S. District Court.
The jury also found that after MOSE JEFFERSON discovered his activities were under investigation, he approached Brooks-Simms on several occasions and encouraged her to use several fabricated stories he had concocted to obstruct and impede the federal investigation.
This case was investigated by the Federal Bureau of Investigation, the Internal Revenue Service, Criminal Investigation Division and the Department of Education, Office of Inspector General. The prosecution is being handled by Senior Litigation Counsel Salvador Perricone and Assistant U. S. Attorneys Richard R. Pickens, II and Michael M. Simpson.
Top
Printable view
Last Modified: 02/01/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov